No.

SUPREME COURT OF THE UNITED STATES

WARREN WEXLER, PETITIONER

V.
UNITED STATES OF AMERICA

ON PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI - CORRECTED PROOF OF SERVICE

WARREN WEXLER
Petitioner, Pro Se
7877 E. Mississippi Ave, #507
Denver, CO 80247

(267) 701-1116
warren_w2013@yahoo.com

RECEIVED

M. 1 5 2020

Attached is a corrected Proof of Service which supersedes the one I attached to my
Petition for A Writ of Certiorari.
Respectfully submitted on this 10rd day of July, 2020.

L

WARREN WEXLER
Petitioner, Pro Se
7877 E. Mississippi Ave, #507
Denver, CO 80247

(267) 701-1116
warren_w2013@yahoo.com

No.
IN THE
SUPREME COURT OF THE UNITED STATES
— PETITIONER
WARREN WEXLER
VS.
— UNITED STATES OF AMERICA

CORRECTED PROOF OF SERVICE
I, WARREN WEXLER , do swear or declare that on July 6, 2020, as required by
Supreme Court Rule 29 I have served my PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Ave., N.W., Washington, D. C. 20530-0001
Michael C. Johnson, Office of the United States Attorney, at 1801 California St,
Ste. 1600, Denver CO 80202
I declare under penalty of perjury that the foregoing is true and correct.
This corrected Proof of Service supersedes the one that I attached to my Petition for
A Writ of Certiorari.

Executed on July 10, 2020

No.
IN THE
SUPREME COURT OF THE UNITED STATES
— PETITIONER
WARREN WEXLER

VS.
— UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
I, WARREN WEXLER, certify that on July 10, 2020 I sent a copy of the foregoing by
USPS first-class postage prepaid to:
Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Ave., N.W., Washington, D. C. 20530-0001
Michael C. Johnson, Office of the United States Attorney, at 1801 California St,
Ste. 1600, Denver CO 80202
DATE: Jul

2Q2&

7

